HHS/OIG, Audit -"Review of Virginia's Contingency Fee Payments for Maximizing Federal Revenues Claimed by Its
Medicaid Managed Care Program,"(A-03-04-00213)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Virginia's Contingency Fee Payments for Maximizing Federal Revenues Claimed by Its Medicaid Managed Care
Program," (A-03-04-00213)
November 9, 2004
Complete
Text of Report is available in PDF format (234 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Virginia improperly claimed, as Medicaid administrative costs, contingency
fees paid to a consulting firm for Federal revenue maximization services. Between October 2001 and April 2003, Virginia
claimed $677,964 in unallowable contingency fee payments made to a consulting firm for providing Federal revenue maximization
services.  The Federal share of these payments totaled $338,982.  The consulting firm increased Federal revenues
for Virginia by identifying expenditures eligible for 90 percent Federal financial participation.  Virginia stated
that it had improperly claimed these fees as Medicaid administrative costs and intended to submit the corrective adjustment.  We
recommended that Virginia refund $338,982 ($202,821 for Federal fiscal year 2002 and $136,161 for Federal fiscal year 2003)
for the Federal share of improperly claimed contingency fees.  Virginia concurred with our finding and recommendation.